U.S. Department of Agriculture
 Office of Inspector General
      Southwest Region
         Audit Report




      Farm Service Agency
      Payment Limitations -
      Majority Stockholders
        of Corporations




               Report No.
               03099-27-Te
               May 2001
                    UNITED STATES DEPARTMENT OF AGRICULTURE
                                OFFICE OF INSPECTOR GENERAL

                                    Washington D.C. 20250


DATE:               May 24, 2001

REPLY TO
ATTN OF:     03099-27-Te

SUBJECT:     Farm Service Agency Payment Limitations –
             Majority Stockholders of Corporations

TO:          James R. Little
             Acting Administrator
             Farm Service Agency

ATTN:        T. Mike McCann
             Director
             Operations Review and Analysis Staff


This report presents the results of our audit of the Farm Service Agency’s (FSA) Payment
Limitations – Majority Stockholders of Corporations. The FSA’s response to the draft
report, dated May 15, 2001, is included as exhibit D with excerpts and the Office of
Inspector General’s position incorporated into the relevant sections of the report.

While we generally agree with your management decision, we need additional information
to reach management decisions on all recommendations (Recommendations Nos. 1, 2, 3,
and 4). The information needed is set forth in the sections of the report marked “OIG
Position.”

In accordance with Departmental Regulation 1720-1, please furnish a reply within    60
days describing the corrective action taken or planned and the timeframes for
implementation of each audit recommendation. Please note that the regulation requires
management decisions to be reached on all findings and recommendations within a
maximum of 6 months from report issuance and final actions to be taken within 1 year of
the management decisions.

We appreciate the courtesies and cooperation extended to us by members of your staff
during the audit.



/s/ Richard D. Long
RICHARD D. LONG
Assistant Inspector General
    for Audit
                                EXECUTIVE SUMMARY
                                FARM SERVICE AGENCY
                                PAYMENT LIMITATIONS –
                      MAJORITY STOCKHOLDERS OF CORPORATIONS

                                       REPORT NO. 03099-27-Te


                                           There are limits to the amount of various annual
         RESULTS IN BRIEF                  agricultural program payments that a “person” is
                                           entitled to receive. For payment limitation
             purposes, a corporation is considered to be one combined “person” together
             with its majority stockholder, if any. (A majority stockholder is a stockholder
             who owns more than 50 percent of a corporation.) We performed this audit
             of Farm Service Agency (FSA) majority stockholder payment limitations
             because a review of county office (CO) operations in Jackson County,
             Arkansas, revealed a significant number of corporations in that county had
             not been combined with their majority stockholders as one “person.” The
             objective of this audit was to determine if FSA controls over program
             payments to corporations with majority stockholders were sufficient to
             prevent payments in excess of applicable payment limitations.

                 Payment limitations are generally controlled by the automated payment
                 process, based upon information entered by CO employees into the
                 automated subsidiary files. Since the system does not automatically
                 combine corporations with their majority stockholders, proper combinations
                 of such are incumbent upon correct (combined) “person” determinations (by
                 county committees (COC)) and correlative data entry (by CO employees).

                 For 1998 and 1999 nationwide, our review disclosed that corporations had
                 majority stockholders in a total of 68,425 cases1. Of these,       24,946
                 (36 percent) had not been combined with their majority stockholders in the
                 automated subsidiary files (see exhibit A). We did not perform additional
                 work to determine how many of the noncombinations could be attributed to
                 incorrect “person” determinations (by COC’s) versus data entry errors (by
                 CO employees), but concluded that controls were inadequate to ensure that
                 payments to corporations and their majority stockholders were properly
                 limited.

                 We performed a limited review of direct program payments issued to
                 4,118 of the 24,946 majority stockholders and corporations that had not
                 been combined in the automated system. However, the data we reviewed
                 did not include payments that the majority stockholders or corporations may

1
 The cases for 1998 and 1999 are not mutually exclusive. That is, a corporation with a majority stockholder in
1998 and in 1999 is counted as two cases (one for 1998 and one for 1999).

USDA/OIG-A/03099-27-Te                                                                                    Page i
           have received (indirectly) as members of partnerships or joint ventures.
           (Such indirect payments would also have counted against applicable
           payment limitations for the combined “persons.”) The review, as performed,
           did not identify any direct overpayments.

                                     We recommend that FSA remind COC         and
 KEY RECOMMENDATIONS                 CO  personnel to properly make       majority
                                     stockholder   combinations.      Also, we
        recommend that the FSA computer records system be programmed to
        automatically combine majority stockholders with their corporations in the
        combined producer account file. In the interim, we recommend that FSA
        generate and send monthly exception/error (not combined) reports to CO’s
        for corrective action. We additionally recommend the FSA National Office
        monitor the monthly corrections.

                                      FSA plans to issue a national notice to instruct
    AGENCY RESPONSE                   State and CO personnel to review the subject
                                      records     and      make       the     required
        determinations/corrections for 1999 and subsequent years. After State
        offices report that the CO’s have completed the actions required in the
        notice, the report will be generated again to verify that appropriate
        determinations have been made and recorded in the system. FSA will rerun
        this report periodically and, if necessary, send the results to the respective
        State and CO’s for corrective action. The FSA National Office will follow up
        on the periodic reports as needed to ensure that corrective actions are
        completed in a timely manner.           FSA is currently in the process of
        reengineering the subsidiary files and will consider programming the system
        to automatically determine and combine the majority stockholder and
        corporation as one “person.”

                                    FSA     generally    agreed     with     our
         OIG POSITION               recommendations;    however,     to   reach
                                    management decision, we need additional
          information. The information needed is described in the “OIG Position”
          section for each recommendation.




USDA/OIG-A/03099-27-Te                                                        Page ii
                                         TABLE OF CONTENTS

EXECUTIVE SUMMARY............................................................................................................i
   RESULTS IN BRIEF ...............................................................................................................i
   KEY RECOMMENDATIONS ................................................................................................ii
   AGENCY RESPONSE...........................................................................................................ii
   OIG POSITION.........................................................................................................................ii
TABLE OF CONTENTS ...........................................................................................................iii
INTRODUCTION.........................................................................................................................1
   BACKGROUND......................................................................................................................1
   OBJECTIVE.............................................................................................................................2
   SCOPE .....................................................................................................................................2
   METHODOLOGY ....................................................................................................................3
FINDINGS AND RECOMMENDATIONS................................................................................4
   CHAPTER 1- MAJORITY STOCKHOLDERS NOT SHOWN AS COMBINED IN THE
   AUTOMATED SYSTEM.........................................................................................................4
   RECOMMENDATION NO. 1 .................................................................................................5
   RECOMMENDATION NO. 2 .................................................................................................6
   RECOMMENDATION NO. 3 .................................................................................................6
   RECOMMENDATION NO. 4 .................................................................................................7
EXHIBIT A – NUMBERS OF MAJORITY STOCKHOLDERS NOT COMBINED TO BE
ONE “PERSON” WITH THEIR CORPORATIONS ..............................................................8
EXHIBIT B – EXAMPLE OF COMPUTING LIMITATIONS FOR MAJORITY
STOCKHOLDERS .....................................................................................................................9
EXHIBIT C– COUNTIES WITH AT LEAST 20 MAJORITY STOCKHOLDERS NOT
COMBINED FOR 1998 OR 1999 .......................................................................................... 10
EXHIBIT D– AUDITEE’S RESPONSE TO DRAFT REPORT......................................... 12
ABBREVIATIONS ................................................................................................................... 14




USDA/OIG-A/03099-27-Te                                                                                                             Page iii
                                   INTRODUCTION

                                       The Agricultural Act of 1970 established the first
        BACKGROUND                     payment limitation provisions, including a limit to
                                       the amount of annual payments that a “person”
          was entitled to receive under various agricultural programs. Subsequent
          legislation modified the provisions that define a “person” and the rules for
          payment limitation. The following table identifies FSA’s programs with
          payment limitations for the 1998 and 1999 crop years.

                                                                          Limitation Per “Person”
                                                                                 (In Dollars)
                                 Payment Type                             1998             1999
            Subject to Limitation Production Flexibility Contract (PFC)       40,000          40,000
            Marketing Loss Assistance                                         19,888          40,000
            Total of: Marketing Loan Gains and
            Loan Deficiency Payments                                          75,000         150,000
            Conservation Reserve Program
            Annual Rental Payment                                             50,000          50,000
            Environmental Quality Incentive Program
            Cost-Share                                                        10,000          10,000
            Emergency Conservation Program
            Cost-Share                                                       200,000
            Noninsured Crop Disaster Assistance Program                      100,000         100,000


            For payment limitation purposes, the Food Security Act of 1985, as
            amended by the Omnibus Budget Reconciliation Act of 1987, defines a
            “person” as

            •       an individual, or an individual participating as a member of a joint
                    operation or similar operation;

            •       a corporation, joint stock company, association, limited stock
                    company, limited partnership, irrevocable trust, revocable trust
                    together with the grantor of the trust, estate, or charitable organization,
                    including any entity participating in the farming operation as a partner
                    in a general partnership, a participant in a joint venture, a grantor of a
                    revocable trust, or a participant in a similar entity; or

            •       a State, political subdivision, or agency thereof.




USDA/OIG-A/03099-27-Te                                                                         Page 1
                  FSA procedures require that a stockholder owning more than 50 percent of a
                  corporation (majority stockholder) be combined with the corporation as one
                  “person” for payment limitation purposes.2 The COC is required to make the
                  initial review and determinations of “actively engaged in farming” and
                  “person” and record the determinations on Form CCC-503A, County
                  Committee Worksheet For “Actively Engaged in Farming” and “Person”
                  Determination.3 When the COC has determined that two or more producers
                  should be combined for payment limitation purposes, CO personnel shall
                  load the combination in the combined producer file as a combined producer
                  account.4 FSA procedures further state that this information is important
                  because automated payment limitation processes use combined producer
                  data in the combined producer file to issue payments.5

                  This audit was initiated because an Office of Inspector General     (OIG)
                  audit of Jackson County, Arkansas, FSA office operations           (Audit
                  No. 03006-18-Te)        revealed that 31 corporations and their majority
                  stockholders had not been combined in the automated system for      1998
                  and 1999 in that county. Although the audit concluded that none of the
                  31 corporations and majority stockholders had been overpaid, OIG officials
                  were concerned about the potential for noncombinations and resultant
                  overpayments at other CO’s in the country.

                                           The objective of this audit was to determine if
               OBJECTIVE                   FSA controls were sufficient to prevent
                                           payments to majority stockholders from
                exceeding established program limits.

                                               The audit covered the 68,425 corporations
                   SCOPE                       which, for the 1998 and 1999 crop years, had
                                               majority stockholders and received program
                  payments subject to limitation. The audit identified 24,946 such corporations
                  which were not combined in the automated system to be one “person”
                  together with their majority stockholders. Because of the large number of
                  exceptions, we elected to sample payments to determine whether total direct
                  payments to the corporations and majority stockholders for the 1998 and
                  1999 crop years exceeded program payment limitations. We selected for
                  review direct payments to the (approximately 4,000) noncombined
                  corporations and their majority stockholders in seven states: Alabama,
                  Arkansas, California, Louisiana, New Mexico, Oklahoma, and Texas. These
                  States included a cross section of the payments made nationwide and
                  included those with rice and cotton production which traditionally generate
                  the larger program payments.


2
3
  FSA Handbook 1-PL (Revision 1), paragraph 313 B, dated February 17, 1995.
4
  FSA Handbook 1-PL (Revision 1), paragraph 393, dated January 23, 1992 and paragraph 394 A dated November 18, 1991.
5
  FSA Handbook 2-PL (Revision 1), paragraph 303 A, dated December 16, 1997.
  FSA Handbook 2-PL (Revision 1), paragraph 303 B, dated December 16, 1997.

USDA/OIG-A/03099-27-Te                                                                                        Page 2
                 Because a high percentage (36 percent) of the majority stockholders
                 nationwide had not been properly combined in the automated files, we
                 concluded that controls over payments to corporations with majority
                 stockholders were inadequate and there was no need to test the system of
                 management controls for compliance. We did not verify the accuracy of the
                 information contained in the agency’s databases or reports6, and did not
                 determine the totality of direct and indirect payments to the majority
                 stockholders and corporations. (Payments the majority stockholders and
                 corporations may have (indirectly) received as members of partnerships,
                 joint ventures, etc., were not included in our review. See exhibit B for an
                 example of computing limitations for majority stockholders).

                 This audit was conducted in accordance with the Government auditing
                 standards issued by the Comptroller General of the United States.
                 Accordingly, the audit included such tests of program and accounting
                 records as deemed necessary to meet the audit objective.

                                           At our request, on or about February 7, 2000,
          METHODOLOGY                      FSA’s Kansas City Management Office
                                           (KCMO) queried its automated subsidiary file
             system: (1) to identify corporations that had majority stockholders for 1998
             and/or 1999 and received payments for the corresponding crop year(s), and
             (2) to determine whether such corporations were shown in the system as
             having been combined together with their majority stockholders to be one
             “person” for payment limitation purposes.

                 For the corporations and majority stockholders that were shown to have not
                 been combined, at our request KCMO queried FSA’s Producer Payment
                 Record System and determined the amounts of 1998 and 1999 program
                 payments subject to limitation issued directly: (1) to the corporations, and
                 (2) to the majority stockholders. For a sample of the noncombined cases,
                 we added together the corporation’s and majority stockholder’s direct
                 payments to determine whether the amounts exceeded established
                 limitations. In those cases where the combined payments appeared to
                 exceed limitations, we contacted applicable         FSA CO personnel and
                 obtained CO records to determine whether, in fact, overpayment had
                 occurred.




6
  However, during our review of direct payments in 9 of the 4,000 cases, it came to our attention that some of the
direct payment data was incorrect – 1998 and 1999 Conservation Reserve Program payments were erroneously
identified as only 1998 payments.

USDA/OIG-A/03099-27-Te                                                                                  Page 3
                     FINDINGS AND RECOMMENDATIONS


CHAPTER 1- MAJORITY STOCKHOLDERS NOT SHOWN AS
COMBINED IN THE AUT OMATED SYSTEM

                                                Majority stockholders and their corporations
                 FINDING NO. 1                  were not entered into the automated system as
                                                combined producer accounts.7 This occurred
                                                because the COC did not properly combine
                   corporations with their majority stockholders to be one “person” for payment
                   limitation purposes, or because CO employees did not correctly enter
                   “person” determination data into the automated system. As a result, there is
                   no assurance that payments to corporations and their majority stockholders
                   were properly limited.

                    The audit identified 68,425 corporations having majority stockholders
                    nationwide, including 24,946 cases where the majority stockholders were not
                    shown as combined producer accounts for the 1998 and                    1999
                    program years. Exhibit A shows that some majority stockholders were not
                    combined in every one of the 50 States and Puerto Rico. The seven States
                    with the largest numbers of majority stockholders not combined for 1998 and
                    1999 were (in descending order) Iowa, Indiana, Texas, Missouri, Florida,
                    Georgia, and Illinois. Exhibit C shows there were 83 counties nationwide
                    with at least 20 majority stockholders not combined for 1998 or for 1999.

                    We reviewed 4,118 cases where majority stockholders could have received
                    payments for one or more programs (see table on page 1) in Alabama,
                    Arkansas, California, Louisiana, New Mexico, Oklahoma, and Texas. Our
                    review failed to identify any cases where the total payments for the
                    corporations and majority stockholders exceeded the limitation afforded one
                    “person.” However, our review did not include payments that a corporation or
                    majority stockholder may have received as a member of a partnership or
                    joint venture. We do not know if any of the corporations or majority
                    stockholders received indirect payments as members of partnerships or joint
                    ventures that participated in agricultural payment programs. Thereby, we are
                    unable to render an opinion as to whether any of the corporations or majority
                    stockholders could have exceeded the limit by receiving payments through a
                    partnership or joint venture. We can only state that the corporations and

7
    FSA Handbook 1-PL (Revision 1), paragraph 313 B, dated February 17, 1995.
8
    FSA Handbook 2-PL (Revision 1), paragraphs 303A and 304A, dated February 16, 1997.

USDA/OIG-A/03099-27-Te                                                                   Page 4
           majority stockholders we reviewed did not exceed the limit via direct
           payments to the corporations and majority stockholders.

           We contacted FSA CO personnel in Macon County, Alabama; Jefferson and
           Texas Counties, Oklahoma; and Cochran, Lamb, and LaSalle Counties,
           Texas, to clarify nine Conservation Reserve Program (CRP) payments for
           1998, which appeared to exceed the $50,000 annual payment limitations for
           that program. However, our review found that the FSA database provided to
           us for use in our review had picked up both the 1998 and 1999 CRP annual
           land rent payments and showed them as the 1998 CRP annual land rent
           payment. When applied to the proper year, we found none of the payments
           exceeded the annual limit.

           FSA personnel told OIG that FSA plans to implement software to
           automatically create combined producer accounts for corporations and their
           majority stockholders, based upon stockholders’ shares entered into the
           automated system. However, this automation has not been accomplished
           because there are other projects with higher priorities. Prior to the conduct
           of this audit, FSA personnel stated they did not believe there would be too
           many noncombinations, but, if the queries showed otherwise, then the priority
           may change.

                                       Remind COC and CO personnel to properly
 RECOMMENDATION NO. 1                  make majority stockholder combinations.


           FSA Response

           A FSA national notice, which instructs the State and CO’s and COC’s to
           review the subject records and make the required determinations/corrections
           for 1999 and subsequent years, is currently in clearance. After the State
           offices report that the CO’s have completed the actions required in the
           notice, the report will be generated again to verify that appropriate
           determinations have been made and recorded in the automated subsidiary
           files.

           OIG Position

           We agree with the planned action by FSA; however, to reach a management
           decision, we need a timeframe for the implementation of the action.




USDA/OIG-A/03099-27-Te                                                          Page 5
                                        Program the computer record system to
 RECOMMENDATION NO. 2                   automatically combine majority stockholders
                                        with the corporations in the combined producer
           account files.

           FSA Response

           FSA is currently in the process of reengineering the subsidiary files and will
           take into consideration the recommendation to program the system to
           automatically combine majority stockholders and the corporation as one
           “person.”

           OIG Position

           To reach management decision, we need to know whether the system will be
           programmed to automatically combine the majority stockholders and the
           corporations as one “person” and the timeframe for the completion of the
           project.

                                        In the interim (until Recommendation No. 2 can
 RECOMMENDATION NO. 3                   be implemented), generate and send
                                        exception/error (not combined) reports to CO’s
           for correction.

           FSA Response

           FSA will rerun the report in about 30 days after the CO’s are instructed to
           review the files and make the required corrections. FSA will also run this
           report periodically and, if necessary, send the results to the respective State
           and CO’s for corrective action.

           OIG Position

           We agree with the planned action by FSA; however, to reach a management
           decision, we need the timeframe for when the CO’s will be instructed to
           review the files and make the required corrections (see also OIG Position for
           Recommendation No. 1) and a minimal commitment from FSA as to how
           often FSA will “periodically” run and review the exception report.




USDA/OIG-A/03099-27-Te                                                            Page 6
                                       The FSA National Office should monitor the
 RECOMMENDATION NO. 4                  monthly exception/error reports to ensure CO’s
                                       are making corrections.

           FSA Response

           The FSA National Office will follow up on the periodic reports as needed to
           ensure that corrective actions are completed in a timely manner.

           OIG Position

           According to its response, the FSA National Office’s followup will be
           contingent on timely completion of the corrective action by the State and
           county offices (see Recommendations Nos. 1 and 3). However, in order to
           reach management decisions on these two recommendations, FSA needs
           to provide a timetable for implementing the corrective action. Therefore, to
           reach management decision on this recommendation, we also need a
           timeframe for implementation of the corrective action. In addition, we will
           need a minimal commitment from FSA as to how often the national office will
           follow up to ensure that corrective actions are completed in a timely manner.




USDA/OIG-A/03099-27-Te                                                          Page 7
EXHIBIT A – NUMBERS OF MAJORITY STOCKHOLDERS NOT
COMBINED TO BE ONE “PERSON” WITH THEIR CORPORATIONS


              STATE              1998       1999      TOTAL
          Alabama Total               154       161
          Alaska Total                  2         2
          Arizona Total               100       103
          Arkansas Total              274       285
          California Total            327       334
          Colorado Total              242       264
          Connecticut Total            16        19
          Delaware Total               46        49
          Florida Total               491       465
          Georgia Total               490       516
          Hawaii Total                 17        20
          Idaho Total                 251       274
          Illinois Total              481       536
          Indiana Total               824       848
          Iowa Total                  894       944
          Kansas Total                428       464
          Kentucky Total              215       231
          Louisiana Total             356       372
          Maine Total                  32        35
          Maryland Total              127       136
          Massachusetts Total          74        77
          Michigan Total              224       236
          Minnesota Total             463       468
          Mississippi Total           360       376
          Missouri Total              535       564
          Montana Total               427       464
          Nebraska Total              367       381
          Nevada Total                 29        31
          New Hampshire Total          17        17
          New Jersey Total             51        60
          New Mexico Total            109       108
          New York Total              167       172
          North Carolina Total        347       359
          North Dakota Total          149       159
          Ohio Total                  408       434
          Oklahoma Total              166       164
          Oregon Total                177       187
          Pennsylvania Total           81        91
          Puerto Rico Total            28         2
          Rhode Island Total            3         4
          South Carolina Total        172       183
          South Dakota Total          287       301
          Tennessee Total              83        81
          Texas Total                 609       616
          Utah Total                   75        83
          Vermont Total                28        29
          Virginia Total              230       279
          Washington Total            136       150
          West Virginia Total          23        27
          Wisconsin Total             459       473
          Wyoming Total               135       126
          GRAND TOTAL              12,186    12,760     24,946




USDA/OIG-A/03099-27-Te                                           Page 8
EXHIBIT B – EXAMPLE OF COMPUTING LIMITATIONS FOR
MAJORITY STOCKHOLDERS


SITUATION

  §   Corporation A earns a computed PFC payment of $30,000.

  §   Stockholder A:

                  (1) owns 60 percent of the value of the outstanding stock in corporation A,
                  (2) is a separate producer on another farm for which the PFC payments
                       total $15,000, and
                  (3) is a 25-percent member of partnership A for which the PFC payments
                      total $28,000.


DETERMINATION

  1. If Stockholder A Was Properly Combined With Corporation A

      For payment limitation purposes, $52,000 is attributed to stockholder A, which is the sum of the
      following:

                  (1) corporation A’s payment of $30,000,
                  (2) stockholder A’s individual payment of $15,000, and
                  (3) stockholder A’s $7,000 share (25 percent of $28,000) of
                       partnership A’s payment.

      Stockholder A is subject to the $40,000 limitation as one “person.”

      The payment to stockholder A as an individual must be reduced by $12,000, unless it is agreed
      between the producers to make the reduction in payment to the corporation or the partnership.

      Because the $40,000 payment limitation has been reached, no additional payments may be made
      to corporation A or to stockholder A either directly or indirectly through partnership A.


  2. If Stockholder A Was Not Combined With Corporation A

      For payment limitation purposes, $40,000 is attributed to stockholder A, which is the sum the
      following:
                          (1) stockholder A’s $18,000 share of the corporation’s payment
                               (60 percent of $30,000),
                          (2) stockholder A’s individual payment of $15,000, and
                          (3) stockholder A’s $7,000 share (25 percent of $28,000) of
                               partnership A’s payment.




USDA/OIG-A/03099-27-Te                                                                          Page 9
EXHIBIT C– COUNTIES WITH AT LEAST 20 MAJORITY
STOCKHOLDERS NOT COMBINED FOR 1998 OR 1999

                                                  NUMBERS OF MAJORITY STOCKHOLDERS
                                                 NOT COMBINED TO BE ONE “PERSON” WITH
                                                         THEIR CORPORATIONS
COUNT          STATE            COUNTY                1998                1999
     1         Mississippi             Bolivar                68                   71
     2               Florida              Polk                66                   66
     3            Montana              Liberty                47                   48
     4                  Iowa     Washington                   44                   46
     5           Arkansas            Jackson                  43                   18
     6               Florida     Palm Beach                   42                   45
     7               Florida             Dade                 40                    1
     8              Indiana              Knox                 39                   40
     9            California            Tulare                38                   41
    10               Florida             Lake                 38                   38
    11            Colorado               Weld                 37                   40
    12         Mississippi       Washington                   33                   35
    13             Arizona          Maricopa                  31                   32
    14          Minnesota             Renville                31                   29
    15           Nebraska                 Burt                30                   28
    16            Missouri           Chariton                 29                   30
    17            Delaware            Sussex                  28                   31
    18            California              Yolo                28                   27
    19             Arizona               Pinal                27                   30
    20              Indiana          Madison                  27                   28
    21                  Iowa           Dallas                 27                   28
    22                Texas             Lamb                  27                   27
    23                  Iowa            Jones                 27                   26
    24          Wisconsin                Dane                 27                   26
    25      Massachusetts           Plymouth                  26                   28
    26                  Iowa         Kossuth                  26                   27
    27              Indiana             White                 26                   25
    28         Mississippi        Humphreys                   26                   24
    29               Florida       Highlands                  25                   28
    30           Arkansas             Lonoke                  25                   26
    31              Indiana      Montgomery                   25                   25
    32                  Iowa          Grundy                  25                   25
    33                  Iowa      Winnebago                   25                   25
    34           Louisiana       West Carroll                 25                   22
    35              Oregon             Marion                 24                   26
    36               Illinois    Montgomery                   24                   24
    37          Minnesota                 Clay                24                   23
    38         Mississippi          Coahoma                   23                   31
    39            California          Fresno                  23                   25
    40              Indiana        Kosciusko                  23                   25
    41       North Carolina         Sampson                   23                   25
    42              Indiana             Wells                 23                   23
    43               Florida          Orange                  23                   22
    44             Georgia              Dooly                 23                   22
    45                 Idaho       Twin Falls                 22                   27
    46            Montana             Fergus                  22                   24
    47             Georgia           Mitchell                 22                   23
    48              Indiana              Rush                 22                   23
    49              Indiana           Shelby                  22                   23
    50                  Iowa             Scott                22                   23


USDA/OIG-A/03099-27-Te                                                      Page 10
                                                  NUMBERS OF MAJORITY STOCKHOLDERS
                                                 NOT COMBINED TO BE ONE “PERSON” WITH
                                                         THEIR CORPORATIONS
COUNT          STATE            COUNTY                1998                1999
    51          Wisconsin           Shawano                     22                  23
    52               Florida           Hendry                   22                  22
    53                  Iowa           Clinton                  22                  22
    54            Montana           Chouteau                    22                  22
    55       North Carolina             Bertie                  22                  22
    56           Minnesota        West Polk                     22                  21
    57           Arkansas          Craighead                    21                  25
    58               Illinois     Sangamon                      21                  24
    59            Maryland      Queen Annes                     21                  24
    60                  Ohio           Licking                  21                  23
    61           Louisiana           Richland                   21                  22
    62                  Iowa     Cerro Gordo                    21                  21
    63           Louisiana         St. Landry                   21                  21
    64                  Iowa            Cedar                   21                  20
    65            Montana                Toole                  20                  23
    66            California             Butte                  20                  22
    67            California      San Joaqin                    20                  22
    68              Indiana            Adams                    20                  21
    69              Indiana          Hamilton                   20                  21
    70                  Iowa               Lee                  20                  21
    71              Indiana          Wabash                     20                  20
    72           Louisiana       Assumption                     20                  20
    73          Wisconsin            Jefferson                  20                  20
    74        New Mexico               Chaves                   20                  19
    75           Louisiana       East Carroll                   20                  18
    76           Arkansas         Mississippi                   15                  26
    77            Maryland              Talbot                  19                  21
    78              Indiana           Daviess                   19                  20
    79                  Iowa        Plymouth                    19                  20
    80            Michigan           Lenawee                    19                  20
    81             Missouri       St. Charles                   19                  20
    82                Idaho           Canyon                    18                  20
    83           Nebraska        Scotts Bluff                   18                  20
                  TOTALS                                     2,159               2,181




USDA/OIG-A/03099-27-Te                                                      Page 11
EXHIBIT D– AUDITEE’S RESPONSE TO DRAFT REPORT




USDA/OIG-A/03099-27-Te                          Page 12
USDA/OIG-A/03099-27-Te   Page 13
                               ABBREVIATIONS



           CO            County Office

           COC           County Committee

           CRP           Conservation Reserve Program

           FSA           Farm Service Agency

           KCMO          Kansas City Management Office

           OIG           Office of Inspector General

           PFC           Production Flexibility Contract




USDA/OIG-A/03099-27-Te                                     Page 14
